<html>
<title> - HEARING ON THE USE OF TECHNOLOGY TO BETTER TARGET BENEFITS AND ELIMINATE WASTE, FRAUD, AND ABUSE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                  HEARING ON THE USE OF TECHNOLOGY TO
      BETTER TARGET BENEFITS AND ELIMINATE WASTE, FRAUD, AND ABUSE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             April 19, 2012

                               __________


                          Serial No. 112-HR11

                               __________

         Printed for the use of the Committee on Ways and Means



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE

74-807                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

WALLY HERGER, California             SANDER M. LEVIN, Michigan
SAM JOHNSON, Texas                   CHARLES B. RANGEL, New York
KEVIN BRADY, Texas                   FORTNEY PETE STARK, California
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
GEOFF DAVIS, Kentucky                XAVIER BECERRA, California
DAVID G. REICHERT, Washington        LLOYD DOGGETT, Texas
CHARLES W. BOUSTANY, JR., Louisiana  MIKE THOMPSON, California
PETER J. ROSKAM, Illinois            JOHN B. LARSON, Connecticut
JIM GERLACH, Pennsylvania            EARL BLUMENAUER, Oregon
TOM PRICE, Georgia                   RON KIND, Wisconsin
VERN BUCHANAN, Florida               BILL PASCRELL, JR., New Jersey
ADRIAN SMITH, Nebraska               SHELLEY BERKLEY, Nevada
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas
ERIK PAULSEN, Minnesota
KENNY MARCHANT, Texas
RICK BERG, North Dakota
DIANE BLACK, Tennessee
TOM REED, New York

         Jennifer Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                    SUBCOMMITTEE ON HUMAN RESOURCES

                    GEOFF DAVIS, Kentucky, Chairman

ERIK PAULSEN, Minnesota              LLOYD DOGGETT, Texas
RICK BERG, North Dakota              JIM MCDERMOTT, Washington
TOM REED, New York                   JOHN LEWIS, Georgia
TOM PRICE, Georgia                   JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee
CHARLES W. BOUSTANY, JR., Louisiana













                            C O N T E N T S

                               __________

                                                                   Page

Advisory of April 19, 2012 announcing the hearing................     2

                               WITNESSES

Panel 1:

Ms. Donna Roy, Executive Director, National Information Exchange 
  Model (NIEM), U.S. Department of Homeland Security, Testimony       7
The Honorable George Sheldon Acting Assistant Secretary, 
  Administration for Children and Families, U.S. Department of 
  Health and Human Services, Testimony                               23

Panel 2:

Mr. Robert Doar Commissioner, Human Resources Administration, New 
  York City, Testimony                                               44
Ms. Ginger Zielinskie Executive Director, Benefits Data Trust, 
  Testimony                                                          54
Mr. Darryl McDonald Executive Vice President, Teradata 
  Corporation, Testimony                                             63
Mr. Campbell Pryde President and Chief Executive Officer, XBRL 
  US, Testimony                                                      74

 
                    HEARING ON THE USE OF TECHNOLOGY
    TO BETTER TARGET BENEFITS AND ELIMINATE WASTE, FRAUD, AND ABUSE

                              ----------                              


                        THURSDAY, APRIL 19, 2012

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:03 a.m. in 
Room 1100, Longworth House Office Building, the Honorable Geoff 
Davis [Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

HEARING ADVISORY

                 Davis Announces Hearing on the Use of

 Technology to Better Target Benefits and Eliminate Waste, Fraud, and 
                                 Abuse

Thursday, April 19, 2012

    Congressman Geoff Davis (R-KY), Chairman of the Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on the use of technology to 
better target benefits and eliminate waste, fraud, and abuse. The 
hearing will take place on Thursday, April 19, 2012, in 1100 Longworth 
House Office Building, beginning at 10:00 A.M.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include representatives from the U.S. Department of 
Health and Human Services (HHS) and the U.S. Department of Homeland 
Security (DHS), as well as other public and private sector experts on 
the current status of and the potential for technology to improve the 
administration of public benefits. However, any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Committee and for inclusion in the 
printed record of the hearing.
      

BACKGROUND:

      
    During the 112th Congress, the President has signed into law 
bipartisan, no-cost legislation drafted by the Human Resources 
Subcommittee to standardize data used in child welfare, Temporary 
Assistance to Needy Families (TANF), and unemployment insurance 
programs. Efforts to standardize program data are designed to improve 
the efficiency of these programs, allow them to better communicate with 
one another, and improve program integrity by ensuring that program 
benefits are paid only to eligible individuals. The use of consistent 
identification codes and formatting methods will allow for more timely 
flow of data that could then be easily searched and analyzed to better 
target benefits and identify waste, fraud, and abuse. These provisions 
were enacted in the 2011 Child and Family Services Improvement and 
Innovation Act (P.L. 112-34) and the Middle Class Tax Relief and Job 
Creation Act of 2012 (P.L. 112-96).
    The Subcommittee's efforts to standardize data are reflected on a 
broader scale by the bipartisan H.R. 3339, The Standard Data and 
Technology Advancement Act, or the ``Standard DATA Act,'' introduced by 
Chairman Davis and Ranking Member Doggett (D-TX). This legislation 
requires the relevant agency secretary or program administrator to 
establish consistent requirements for the electronic content and format 
of data used in the administration of several additional human services 
programs established in the Social Security Act, including Child 
Support Enforcement and Supplemental Security Income.
    One example for improving the exchange of data among programs 
recommended by the enacted and proposed legislation is the National 
Information Exchange Model (NIEM). NIEM provides a data model, 
governance, and methodologies to engage stakeholders in adopting a 
standards-based approach to exchanging information. Initially used to 
coordinate the exchange of law enforcement information, HHS is a recent 
adopter and advocate for transitioning human services programs to NIEM.
    In announcing the hearing, Chairman Davis stated, ``The progress 
made in the last year is only the first step in a much longer process 
of bringing human service programs into the 21st century. The 
standardization activities reviewed in this hearing will promote 
transparency, flexibility, and accountability by ensuring data can be 
shared across the various information technology platforms used by 
federal and state agencies. Improving the use of this program data will 
benefit program recipients and taxpayers alike by ensuring efficient 
and effective stewardship of scarce taxpayer funds.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on current and future data standardization 
efforts designed to increase the use of technology to improve the 
administration of public benefit programs.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Click here to provide a submission 
for the record.'' Once you have followed the online instructions, 
submit all requested information. ATTACH your submission as a Word 
document, in compliance with the formatting requirements listed below, 
by the close of business on Thursday, May 3, 2012. Finally, please note 
that due to the change in House mail policy, the U.S. Capitol Police 
will refuse sealed-package deliveries to all House Office Buildings. 
For questions, or if you encounter technical problems, please call 
(202) 225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://www.waysandmeans.house.gov/.

                                 <F-dash>


    Chairman DAVIS. Welcome to the most recent installment in 
the Subcommittee's ongoing efforts to promote the 
standardization of program data within the cross public benefit 
programs.
    One of the key purposes for today's hearing will be to 
review the progress that has already been made with relevant 
agencies and outside experts, as well as consider next steps.
    It was just 13 months ago that this Subcommittee held its 
first hearing on the use of data matching to improve customer 
service, program integrity, and taxpayer savings.
    One of the initial factors driving this effort was the 
rising level of Federal improper payments which peaked at $125 
billion in fiscal year 2010.
    It was about much more than that. It really became about 
making Government work smarter, faster, and more efficiently 
for both beneficiaries and taxpayers.
    We should expect more from Government. We should expect it 
not to operate from an era before the personal computer 
existed, but one from the 21st Century using integrated 
technologies and information systems, not unlike the private 
sector uses today in competitive industry, and also most 
consumers do within their homes today in terms of how they 
manage their finances and their purchases.
    Companies like Google and Facebook have grown based on 
their ability to help customers search, access, share and 
interpret data.
    It is long past time for Government to use those same sorts 
of tools to improve the services we offer to help the less 
fortunate and the taxpayer dollars spent on them.
    In September, the President signed our bipartisan and 
bicameral Child and Family Services Improvement and Innovation 
Act, which codified into law for the first time in history our 
data standards language for all child welfare programs.
    This was followed by another example of bipartisanship when 
the same language was included in the Middle Class Tax Relief 
and Job Creation Act of 2012, and applied to the Unemployment 
Insurance and Temporary Assistance to Needy Families programs.
    We hope to expand this effort through H.R. 4282, which was 
recently introduced by Representative Berg and Ranking Member 
Doggett and co-sponsored by the entire Subcommittee.
    This bill would apply the same data standardization 
language to the Child Support Enforcement Program under our 
jurisdiction.
    With enactment in three programs already, Congress has sent 
a clear bipartisan message that it wants to improve the 
operation of public benefit programs through data 
standardization.
    H.R. 3339, the Standard DATA Act, would apply this 
provision more broadly to all programs within the 
Subcommittee's jurisdiction.
    We believe this bill is firm but flexible so that those 
with the most knowledge of how these programs operate can come 
together to craft a better path forward.
    We also need to hold the Executive Branch accountable for 
its role in modernizing the operation of Government programs. 
That is why we have asked several key agencies, the Department 
of Health and Human Services and the Department of Homeland 
Security, to testify at this hearing about their progress and 
plans for the future.
    We plan to continue expanding this effort across other 
programs that serve similar populations so we can achieve a 
truly beneficiary-centered approach to how these programs are 
run.
    We also need a more complete view of how many people 
receive benefits under multiple programs, which will help to 
better target benefits to people in need, as well as improve 
understanding of program effectiveness, especially given our 
budget challenges ahead. We simply have no choice but to take 
these steps to make sure programs operate more efficiently and 
to provide benefits to those most in need and only to those in 
need.
    We look forward to all testimony from both of our panels. 
We also look forward to continuing to work in a bipartisan 
manner to improve how public benefit programs serve the 
children and families who depend on them, while assuring 
taxpayer dollars are used efficiently and effectively.
    Now I would like to turn the microphone over to my friend 
and partner in this effort over the last year and a half, the 
Ranking Member, Lloyd Doggett from Texas.
    Mr. DOGGETT. Thank you, Mr. Chairman. Thank you for the 
great personal interest that you have shown in this whole data 
matching effort and for the partnership we have enjoyed in 
working as you mentioned on child welfare legislation on data 
matching for Temporary Assistance for Needy Families and for 
Unemployment Insurance Programs.
    It is important to improve the administration of public 
programs through technology. It benefits taxpayers and it 
benefits those who rely on those programs.
    Abuse of Government programs, whether by multinational 
pharmaceutical companies or a person collecting unemployment 
insurance is never acceptable. It denies the benefits that are 
needed to others, and it unjustly treats the taxpayer.
    I hope we can continue to make progress on standardizing 
data that would include incorporating existing non-proprietary 
standards such as XBRL, that has the support of the Texas 
Society of Certified Public Accountants.
    I think the better use of data matching and data sharing 
across agencies improves our efforts to reduce fraud and abuse. 
We want to get these benefits to those who need them and who 
are eligible for them.
    My interest in this is not only about program integrity but 
seeing that programs satisfy their legislative purpose.
    This is particularly true when there are so many families 
in my home State of Texas and across the country that struggle 
to maintain their footing.
    In Bexar County, for example, one in four children are 
poor.
    We must find a way to ensure that our most vulnerable 
citizens are provided with the assistance that they need to 
weather economic storms, and improving the ability to do this 
through better data is one important aspect of outreach.
    Those efforts are now underway in Philadelphia, through a 
collaboration between the State of Pennsylvania and the 
Benefits Data Trust, a non-profit organization from whom we 
will hear this morning.
    The Benefits Data Trust has been able to use state data to 
determine if an individual who is receiving assistance from a 
certain program is likely eligible for assistance in another. 
It is true that there are too many duplicative programs, but 
the total benefits provided by all of them, if delivered 
efficiently in the most effective way, probably do not begin to 
meet the needs that are out there.
    Identifying and connecting low income individuals to the 
services for which they are eligible allows the organization to 
work in a cost effective manner while also dramatically 
improving the outcomes of those individuals who are to receive 
benefits and our economy in the process.
    I think this is particularly relevant to the current 
attention on the delivery of food assistance through SNAP.
    A report released recently by the Department of Agriculture 
found that SNAP benefits helped to reduce national poverty in a 
significant way.
    These benefits play an important role in providing critical 
assistance that I saw recently at the food bank on the west 
side of San Antonio.
    Mr. Chairman, I look forward to hearing from today's 
witnesses and continuing our work together to improve the 
outreach, the efficiency, and the effectiveness of these vital 
public initiatives through the use of technology.
    Thank you so much.
    Chairman DAVIS. I thank the gentleman. I want to remind our 
witnesses to limit their oral statements to five minutes, 
please. However, without objection, all of the written 
testimony will be made part of the permanent record.
    Our first panel this morning, we will be hearing from Ms. 
Donna Roy, Executive Director, National Information Exchange 
Model or NIEM, U.S. Department of Homeland Security.
    The Honorable George Sheldon, Acting Assistant Secretary, 
Administration for Children and Families, U.S. Department of 
Health and Human Services.
    We happened to stand together behind President Obama as he 
signed into law that very first piece of data standardization 
language on September 30 of last year.
    We are excited to have you here.
    Before we move on to our testimony, without objection, I 
would like to change pace for one moment and recognize Dr. 
Price, Chairman of the Republican Policy Committee, who is a 
member of the Subcommittee, and able to be here with us today, 
who would like to introduce a witness from his home state who 
will speak on our second panel today.
    Mr. PRICE. Thank you, Mr. Chairman. I apologize for going 
out of order and I appreciate the indulgence of the Chair.
    I wanted to take this opportunity, not knowing the schedule 
that is going to break as the morning proceeds, to introduce 
Darryl McDonald, who is going to be on our second panel.
    Darryl is the Executive Vice President of Teradata 
Corporation, a wonderful corporate citizen and job creator in 
Georgia and in my District.
    Teradata is responsible for providing strategic direction 
for their products, solutions and services, and is among the 
world's largest companies focused solely on analytics and data 
warehousing.
    Teradata is a growing business with over 8,000 employees 
worldwide.
    Mr. McDonald has deep roots in Georgia, attended the 
University of Georgia, and can give a good ``go Dogs'' with the 
best of them. He currently lives in the 6th Congressional 
District, and his testimony on the second panel today will 
highlight how both business and Government can benefit from 
technology and ultimately save the taxpayers money.
    I am pleased and honored to introduce and welcome Darryl 
McDonald to our committee. Thank you, Mr. Chairman.
    Chairman DAVIS. Thank you. With that, Ms. Roy, please 
proceed with your testimony.

     STATEMENT OF DONNA ROY, EXECUTIVE DIRECTOR, NATIONAL 
INFORMATION EXCHANGE MODEL (NIEM), U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Ms. ROY. Chairman Davis, Ranking Member Doggett and Members 
of the Subcommittee, thank you and good morning.
    My name is Donna Roy. I am the Executive Director of the 
Information Sharing Environment Office in the Department of 
Homeland Security's Office of the Chief Information Officer.
    I also serve as the Executive Director of the National 
Information Exchange Program or NIEM. I have had the privilege 
of holding this position for the past three and a half years.
    I appreciate the opportunity to discuss with you today how 
NIEM helps Government agencies enhance mission performance, 
gain efficiencies, and reduce costs associated with exchanging 
information across IT systems.
    NIEM is a federally supported Government-wide initiative 
that helps communities of people with common interests connect 
and exchange information in order to successfully and 
efficiently accomplish their missions.
    NIEM is not a system or a database, nor does it transmit, 
store or engage in operational data storing. Rather, NIEM 
provides the tools, the training, and importantly, the 
community driven support to assist users in adopting a 
standards based approach.
    It is fitting that we are having this discussion today on 
the seventh birthday of NIEM. The program began on April 19 in 
2005 when the CIOs of DOJ and DHS signed an agreement to 
establish the interagency program.
    This action brought to fruition the work started by half a 
dozen or so practitioners at the state and local level of 
government who had worked to build a national model for sharing 
law enforcement and homeland security information.
    Today, all 50 states and 18 Federal agencies are committed 
to using NIEM in some capacity and at varying levels of 
maturity.
    NIEM is now recognized and used by international partners, 
such as Canada, Mexico, and member countries of the European 
Union.
    Despite NIEM's growth over the past seven years, the 
program has maintained at its core a strong commitment to 
community involvement.
    In my opinion, this is one of the main reasons why NIEM 
stands apart as an example of a Government collaboration at its 
best.
    Whether NIEM is involved in a situation to protect 
citizens, respond to disasters, promote public health, or 
provide needed support services to children and their families, 
the lack of standardization in information exchange across this 
broad landscape of systems, agencies, and jurisdictions creates 
challenges in providing effective and efficient citizen 
services, often leading to fraud, waste and abuse.
    The challenge is clear. How do we connect the wide array of 
systems across the whole of Government while supporting an 
appropriate privacy and security framework flexible enough to 
accommodate the diverse laws, regulations and policies across 
the United States.
    The majority of the work within NIEM is accomplished within 
a strong and active community of volunteers at the state and 
local level.
    The NIEM community stewards a common vocabulary and a 
mature framework to facilitate information exchange. NIEM 
breaks down agency stovepipes and creates opportunities for 
agencies to share information quickly and effectively without 
rebuilding systems.
    As an example of success, NIEM has helped the State of 
Colorado connect child support systems with judicial processing 
systems, improving the speed of administrative case processing 
and execution of child support orders.
    The project reduced manual data entry, eliminated most of 
the paper forms, and improved data reliability. In effect, NIEM 
helped Colorado provide faster, cheaper, and better services to 
its citizens.
    In the difficult fiscal times facing the Government today, 
it is core systemic improvements that will save scarce 
financial resources, improving the effectiveness in Government 
and ultimately making our country safer.
    NIEM is one of these rare systemic improvement 
opportunities.
    As a former Marine who possesses a sincere passion for good 
government, I am continually impressed and energized by the 
level of support across the NIEM community.
    On a more personal note, as the daughter of a woman who 
aged out of the system, and as a former foster mom, I am 
particularly touched by the positive changes NIEM is making in 
the lives of the most vulnerable in our society, which are the 
children and the families that support them.
    Again, I appreciate the opportunity to testify before you 
today, and I look forward to answering any questions you may 
have.
    [The prepared statement of Ms. Roy follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman DAVIS. Thank you, Ms. Roy. We wish a happy 
birthday to NIEM as well.
    The Chair now recognizes Secretary Sheldon for his 
testimony.

   STATEMENT OF GEORGE SHELDON, ACTING ASSISTANT SECRETARY, 
 ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Mr. SHELDON. Chairman Davis, Ranking Member Doggett, 
Members of the Subcommittee, thank you for the opportunity to 
testify about the development of standardized data exchanges 
and the use of technology to better target benefits and 
eliminate waste, fraud and abuse.
    This is my second opportunity to testify in front of this 
Committee. I testified two years ago as Secretary of the 
Department of Children and Families in Florida on this 
Committee's efforts to provide expansion of the IV-E waiver 
concept.
    I thank you for the legislation that passed this year.
    I would like to acknowledge the leadership of Chairman 
Davis in this area. Like you, I believe that these efforts will 
lead to better targeting of benefits to eligible households, 
and at the same time, will reduce fraud, waste and abuse.
    Much work is occurring in this regard already. Clearly, 
much more needs to be done, and the hearing today furthers this 
critical conversation.
    I have a deep personal commitment to the effort you are 
promoting because I experienced firsthand as a state 
administrator what a difference improved data sharing can make 
for those on the front line delivering services.
    We all recognize the problem that we are trying to tackle. 
Valuable information which could support more accurate 
eligibility and benefit determinations, and more thoughtful 
case planning is siloed among multiple systems across related 
but not fully integrated programs.
    Even in cases in which organizations are allowed to share 
information, uncertainties about legal requirements, cultural 
differences, and misperceptions about privacy requirements too 
often stymie efforts to exchange information, even when the 
benefits are obvious.
    We face this situation in the State of Florida, for 
instance.
    The first point I would like to emphasize is the solution 
is not purely a technical one. The initial hurdle is to promote 
a new way of thinking, a cultural exchange that promotes the 
sharing of information.
    In Florida, we worked across eight state agencies to 
develop what we called a ``Children and Youth Cabinet 
Information Sharing System.''
    Rather than develop the initiative from start, we piggy 
backed on the success of another initiative that the court 
system had in place for several years.
    The court system was a multi-agency data sharing system. In 
this manner, we not only benefitted from their technology 
platforms, but we were also able to incorporate the lessons 
that they had learned.
    I emphasize our use of the piggy back in Florida because we 
are taking that same approach at ACF.
    I will talk more about NIEM later, but as you know, we know 
a good idea when we see it. It does not make sense to pay to 
replicate systems we already own or have invested in heavily.
    I believe that the Committee's initial emphasis on data 
exchange is wise. While I am not discounting the need for 
investment to support systems at the Federal, state and local 
levels, there are significant returns that we can realize by 
improving data sharing within the systems that we currently 
have.
    Implementing our system in Florida was a big step forward. 
It saved time, saved labor, reduced errors, and provided real 
time access to information. It allowed participating agencies 
to maintain the control and security that they wanted over 
their own data.
    This is another point I want to emphasize because it 
demonstrates that significant gains can be made without 
compromising privacy, which I know is a critical concern of 
everyone in this room.
    Most importantly, it supports better decision making 
because it provides much needed real time up to date data and 
data exchange capability on a vulnerable child or vulnerable 
family.
    My experience in Florida also confirms that improved data 
sharing can lead to lower improper payments.
    In Florida, we determined eligibility for TANF, SNAP, 
Medicaid and Refugee payments through an integrated automated 
process.
    While five years ago we had one of the worst food stamp 
error rates in the country, in the last three years of my 
tenure there, we achieved the lowest error rate in the SNAP 
program for three consecutive years, an unprecedented 
achievement. By 2010, the error rate was under one percent.
    The point I am making is that an appropriate use of 
technology in terms of sharing our data elements can really 
lead to an overall improvement of the system.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sheldon follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman DAVIS. Thank you very much, Mr. Secretary. I would 
like to move on to questions now.
    What we are talking about today is not about new data but 
about using existing data more efficiently and effectively.
    Secretary Sheldon, nearly every one of your programs 
provides a congressional or annual report, most of which come 
to this Committee.
    I have two here, which I will not enter into the record out 
of mercy for the transcriptionist, but we have some examples I 
would like to show you.
    We have pages up on the screen right now, quite detailed 
information, such as how many beneficiaries there are and how 
dollars are being spent.
    However, beyond those broad facts, the data is not usable 
in helping to improve how the programs perform. Variance 
metrics, understanding the quality of work, the ability to 
drill down inside of those.
    For example, what I would like to share with you and 
members on the Subcommittee from these pages is a recent Child 
Welfare Annual Report on States' Planned and Actual 
Expenditures, which was requested by Congress.
    I see that many of the same forms are used throughout, but 
one thing is how overall the data lacks consistency.
    The pages also appear to be PDF copies of the original 
forms submitted in paper form by states, making many of them 
illegible, frankly.
    What does your agency do with this information, and do you 
think this sort of report is useful for your staff, 
congressional staff, or outside experts?
    I want to qualify my remark. I am not doing this to put you 
on the spot so much, but as we have discussed, we have this 
common problem we are trying to work around, and I would like 
to hear your thoughts on steps to fix this.
    Mr. SHELDON. I appreciate this. The report is based on 
congressional direction of how we should be sharing this 
information. I do think this data is important not only to us 
but I think it is important to the field.
    Clearly, as you have identified, these PDF files are not 
very user friendly.
    Bryan Samuels, who is our Commissioner for the 
Administration for Children, Youth and Family, actually 
identified this difficulty about a year ago, and began working 
with the staff to try to get a more uniform system of reporting 
from the states.
    In addition to that, it is my view that at some point, 
assuming resources are available, we need to be moving from 
hardcopy reporting that can only be shared in a PDF format to a 
much more user friendly, state friendly, and services friendly 
reporting system.
    It is something that has been identified, and I appreciate 
you bringing it to my personal attention, but I would report 
that Commissioner Samuels has identified this and is attempting 
to work on it.
    Chairman DAVIS. I believe the purpose of the report is to 
understand state variations in planned and actual expenditures 
on child welfare so policymakers can know what works better to 
protect children. That is an important goal.
    How do you expect this and other reports will change with 
the enactment of our data standards provision that was signed 
into law?
    Mr. SHELDON. I think the data standardization exchanges are 
an excellent opportunity to begin addressing some of these 
issues. As I indicated in my prepared comments, a lot of 
progress has been made, but there is still a lot more that 
needs to be done, and I think this is a good example.
    With respect to NIEM, we have established an 
interoperability project management team headed by Joe Bodmer, 
who is behind me. I am very optimistic about the direction they 
are taking and the impact it could have on these kinds of 
reports.
    Chairman DAVIS. Thank you, Mr. Secretary. Ms. Roy, NIEM is 
not a standard but a way of setting parameters for data 
exchange so information can flow more freely.
    I recognize this pushes beyond NIEM, but can you tell us 
more about the burden on the agencies and departments, 
especially small local governments, to transition to the 
structures developed by NIEM, both in the short and long term?
    Feel free to use examples outside of human services, if 
that would be helpful in answering the question.
    Ms. ROY. Thank you for asking that question, Chairman. We 
believe we hold true in the NIEM program. One basic 
foundational tenet is that we provide technologies, tools and 
support to reduce the burden for our state and local adopters 
to make sure the technology we employ is consumable given the 
reduced budgets and restraints they have at the state and local 
level.
    As an example, in this PDF, it would be as simple as 
putting XML behind it embedded within this PDF that would make 
this a useful document. That would provide a very low burden to 
employing this type of solution.
    The Recovery Act included recipient reporting from the 
state and locals in the form of an Excel spreadsheet, and in 
the back of that Excel spreadsheet, XML data that could be used 
to exchange information and to add up and total up the dollars 
there.
    I don't believe that everything that we do is a high cost 
IT implementation within the state and locals. We have really 
reduced that burden by providing tools and ways for them to use 
XML in a manner that is at a reduced cost and a quicker time 
for implementation.
    Chairman DAVIS. Very good. Thank you very much. With that, 
I would like to yield to Mr. Doggett, the Ranking Member of the 
Subcommittee, for five minutes.
    Mr. DOGGETT. Ms. Roy, NIEM as it currently exists, I know, 
has been instrumental in facilitating the exchange of data. 
What are some examples, additional examples, of how it is 
currently being used in the Federal Government?
    Ms. ROY. NIEM has realized a significant increase in 
adoption in the Federal Government. In the Department of 
Homeland Security, where my day job is, I can provide some 
examples.
    NIEM is being applied in the Disaster Assistance 
Improvement Program from FEMA to harmonize the 60 forms that 
one could apply for in a disaster situation.
    Amazingly enough, 80 percent of the data on those 60 forms 
is the same, and yet, we make our citizens fill out those forms 
again and again.
    The FEMA Disaster Assistance Program is aimed at 
harmonizing that and allowing citizens to fill out most of that 
information once and pass that information to the agencies to 
ensure that those forms are pre-populated. To me, that's good 
Government.
    The Citizenship and Immigration Services in the Department 
of Homeland Security has applied the use of NIEM in the E-
verification and self check programs, allowing faster citizen 
services in a critical service that we provide.
    Outside of the Department of Homeland Security, the 
Department of Justice has a strong program around index and law 
enforcement information sharing.
    True banner best practice child from the beginning of the 
NIEM program.
    There are really great cases at the state level based on 
some at the Federal level. In Colorado, New York City, and 
Massachusetts, NIEM is being applied in child and family 
services. The really great part about NIEM is that people can 
use it. It is free to use. I never have to know about it.
    I often do not know about it until I hear the good news 
such as the New York Times article around New York City's HHS-
Connect successes. They were able to provide streamlined 
citizen services to their citizens.
    As an example, an 18-year-old mother of a one-year-old son 
who arrived in the city's homeless intake center.
    She had been removed from her own mother's house by ACF in 
September because of neglect. By typing her name into this new 
interface, the case worker was able to within minutes find her 
birth certificate, her baptism certificate, and her mother's 
driver's license to help her document her identity and housing 
history, which homeless services requires.
    That took about 45 minutes out of a six-hour intake process 
because of the work New York City's HHS-Connect has done to 
bring together their information using the NIEM standard. 
Again, we did not know they were doing it. We had no 
anticipation that NIEM would be used in human services when we 
started the program.
    These are all great sorts of use cases around community 
adoption and the community involvement in the use of a program 
originally started for law enforcement and homeland security 
information.
    Mr. DOGGETT. Thanks so much to both of you for your 
leadership. We have a vote under way. I will hold the rest of 
mine. Thank you.
    Chairman DAVIS. I thank the gentleman. I apologize to our 
guests and to our witnesses that a vote intruded upon the 
proceedings right now. We will be back in 20 minutes.
    I would ask Ms. Roy and Secretary Sheldon if you would 
please consider remaining. I believe some of our members do 
have some questions for you before we move on to our second 
panel of witnesses.
    Appreciate you being here today very much, and very excited 
about the progress we have made over the last year and a half 
working together.
    With that, the Subcommittee stands in recess for 20 
minutes.
    [Recess.]
    Chairman DAVIS. The hearing is back in session. We will 
continue with our questioning of our first panel. I would like 
to recognize Dr. Boustany from Louisiana for five minutes.
    Mr. BOUSTANY. Thank you, Mr. Chairman. This is a very 
important hearing, and I know you have had a long interest in 
this interagency cooperation and how we can use data to drive 
this.
    Ms. Roy, you have been involved in all this, trying to push 
this from the inside. Why is it so hard to reach consensus on 
standardization? Please describe some of the difficulties you 
have encountered going forward with all this.
    Ms. ROY. Thank you, Congressman, for asking me that. If it 
were easy, I believe it would not be so hard, such a big push 
to get people to adopt.
    Most of the objections we get are related to education and 
the time to adopt something new. A lot of misperceptions; it is 
hard to use or hard to adopt another standard.
    We believe when we have a cogent conversation around the 
re-use potential, those conversations get easier to have. 
Sometimes we have the objections of not invented here, it is 
not my XML standard, as an example, so it is hard for me to 
sort of diverge and listen openly to a better way of doing 
business.
    For the most part, it has been about outreach and making 
sure we have enough outreach activities out there to apply what 
we think are the good aspects of a program like NIEM out there 
to 3,000 counties, 50 states. As an example, in Homeland 
Security, 18,000 police departments. It is a pretty big 
country, a lot of people to get to.
    Mr. BOUSTANY. Magnitude of order.
    Secretary Sheldon, do you want to comment on that?
    Mr. SHELDON. Yes. I saw this at the state level, where the 
agency that I ran, mental health, substance abuse, TANF, child 
welfare, domestic violence, and everyone is comfortable with 
their little silo; they are safe in it.
    I think as I indicated in my testimony, we know how to do 
the technology, quite frankly, but it is the culture of sharing 
that has to happen.
    I have been meeting with several state commissioners. I 
think there is a growing realization at the state level, as 
there are declining resources, that there is a benefit to data 
exchange standardization.
    I met, for instance, with the Secretary of the Department 
in Virginia just last week. They are doing some extremely 
innovative things in Virginia, and I think other states are 
too, but Virginia may very well be one of those states that 
could be an example to other states.
    What they are attempting to do is not just add 
standardization but a growing sharing of information across 
lines, and ultimately, I think this is going to be where we are 
headed when we get to the point where we are not just dealing 
with the human services domain, but we are also dealing with 
the health domain, as well as with the education domain. Those 
three are so intricately linked.
    Mr. BOUSTANY. Right. It is interesting. There is an irony I 
have experienced in my time in Congress. Late in 2005, I went 
to Iraq. On the way back, I stopped in Landstuhl. I was talking 
to the chief medical officer at the hospital in Landstuhl where 
our wounded warriors were evacuated.
    What was interesting was the fact that we had good data for 
battlefield to Landstuhl, but when our guys left the Department 
of Defense and went over to the Veterans Administration, which 
consisted of a whole different database, there was a lack of 
communication and lost information, and a lot of frustration on 
the part of our veterans.
    I returned in 2008 to see what changes were made, and 
basically, nothing had changed.
    The irony is here we are, an Administration driven to 
implement health information technology to improve quality and 
collaboration, integration of health, and yet our own 
departments cannot seem to get it together.
    I share Chairman Davis' intense interest in this issue 
because as he said in his opening statement, with our budgetary 
constraints and all the other things we are dealing with, this 
should be a no-brainer, albeit a very difficult task, given the 
magnitude and cultural issues.
    That is why I asked the question, to try to drill down a 
little further into what specific problems you are encountering 
going forward on all this.
    If you could continue to work with us on these things and 
help us understand where the road blocks are, what specifically 
is occurring. We can pass legislation, but actual 
implementation and getting this right is a whole different 
story.
    With that, Mr. Chairman, I would yield back. Thank you.
    Chairman DAVIS. I appreciate your comments. The Chair 
recognizes Mr. Reed for five minutes.
    Mr. REED. Thank you, Mr. Chairman. Thank you to our 
witnesses for testifying today.
    Ms. Roy, I am going to direct a lot of my conversation to 
you, as I do not think we have ever had a member of the 
Homeland Security team come here and testify before on human 
resources issues and others.
    I really want to delve into the concerns that NIEM 
potentially is out there for purposes of intelligence 
gathering.
    Can you dispel for me any of the issues that people are 
expressing, that this is confidential information data that 
could potentially be exploited, or concerns about privacy and 
issues like that?
    Ms. ROY. Congressman Reed, those are very good questions. 
Thank you very much for asking them.
    NIEM is just a format for data as it moves. It does not 
imply that you are moving it anywhere. It does provide a common 
vocabulary for someone who wants to send data to someone who 
wants to receive it or more appropriately, network effect of 
multiple people who want to receive it in a way they can 
understand it.
    Early, when the HHS started to see the value of NIEM and 
have the conversations, I have read some sort of blogs out 
there that the CIA would get your health records, sort of had 
to chuckle on that one.
    NIEM does not move the data. NIEM provides the format for 
which the data moves.
    In combination with NIEM are the implementations within a 
Federal, state, local or private sector agency who put in place 
security, privacy, and other aspects of the IT system that 
protects the data.
    NIEM is not the data itself. It is just the format for 
which we agree upon sharing the data.
    The format had applicability across more than intelligence 
domains. It is the homeland security, the emergency management, 
the justice, education, transportation.
    There are a lot of domains where Donna Roy is Donna Roy, 
and the description of Donna Roy as a person, I have a name, 
date of birth, sex, all of those things are consistently the 
same across multiple domains across our Government, that is 
where NIEM provides a significant amount of value.
    Mr. REED. Excellent. Mr. Sheldon, do you have anything to 
offer from HHS' point of view?
    Mr. SHELDON. I think the agencies are still going to be 
able to control their confidentiality requirements.
    When we moved in this direction in Florida, we had what we 
called three joint application design sessions.
    The first two sessions were with programs and addressed 
what kind of information should be put up, what would be 
useful, and what would be useful across agency lines.
    Then in our third session, we brought in the general 
counsels of those agencies to address privacy issues.
    Many of the ideas that were brought up during the 
programmatic piece of those design sessions were included in 
our ultimate application.
    There were a few that did not make it because of 
confidentiality concerns, and then we developed memorandums of 
understanding between all the agencies who were participating.
    There was a memorandum of understanding between the sender 
agency and the receiver agency.
    I think as we move forward, we are going to have to do that 
kind of collaboration in order to break down some of these 
walls.
    I also think there is a lot of misconception about 
confidentiality requirements and what is confidential. For 
instance, if I have a child who is in the child welfare system, 
and that child is in care, it would be very helpful to the 
state child welfare agency to know how that child is doing in 
school.
    Yet, that information, under the current FERPA statutes, is 
not shareable.
    I think with respect to data sharing you need a process 
where access is limited to those who have a need to know. 
Obviously, when you deal with a child in the child welfare 
system, the extent to which you can interface with what is 
happening with that child in the education system, is better 
for the child.
    Those are the kinds of things I think on an ongoing basis 
we are going to have to work through.
    I am very confident from a technology standpoint we can do 
this. I do think we have to break down a lot of misconceptions 
that exist.
    Mr. REED. I would agree with that sentiment, the 
misconception about the ulterior motives potentially that are 
out there floating in the blogosphere and everywhere else.
    I appreciate that and I look forward to working with you to 
accomplish that.
    Mr. SHELDON. If I might, Mr. Chairman.
    Mr. REED. Please.
    Mr. SHELDON. We had a taskforce in Florida after the 
Virginia Tech killings, and what we found is that the folks in 
the colleges and mental health arena were not communicating 
with the people who had a need to know if in fact there were 
some dangers.
    That is the kind of ongoing dialogue, I think, institutions 
are going to have to have in order to not just make sure that 
we are covering fraud and abuse but we are also protecting 
individuals at the same time.
    Mr. REED. I appreciate that. My time has expired. Mr. 
Chairman, I yield back.
    Chairman DAVIS. I thank the gentleman. The Chair recognizes 
the gentleman from North Dakota, Mr. Berg.
    Mr. BERG. Thank you, Mr. Chairman. Thank you for being 
here. I apologize for the disruption with the voting. It is one 
of those days probably more typical than not.
    As you know, this Committee has been working a lot on data 
standardization and the programs within our jurisdiction, child 
welfare, TANF, and the Unemployment Insurance.
    As you heard Ranking Member Doggett and others, we co-
sponsored a bill to do the same thing in child enforcement, and 
really on a global basis.
    My question for Ms. Roy is on the bigger picture, as you 
look around all the things that Government is involved with, 
are there other agencies and programs that are looking at 
standardization and doing some things that kind of pop out as 
other examples?
    Ms. ROY. We are in the business of being an available-to-
use public service. I wish I knew all the good news around the 
communities and the agencies that were adopting NIEM.
    Again, as I stated, I find out when I hear it in the press 
or someone bragging about a good news story.
    That being said, we are seeing a lot of positive movement 
in the human services arena in Colorado, New York City, in 
Massachusetts. There is an exponential growth factor every time 
one of those states shares its best practices.
    It is a little bit of a wild card with this community 
driven program, but they foster conversations with a state near 
them or with someone else that is interested.
    We will see this network impact of a community that is 
very, very involved.
    At the Federal level, as I mentioned, we have almost all of 
the Federal agencies doing something with NIEM. In particular, 
new domains, and around education, around transportation, are 
encouraging, because they have an impact on this cross 
community information exchange.
    A child is a child. He goes to school. The child might be 
part of a welfare program and might get school lunch programs.
    NIEM was built to actually sustain that cross business 
transactional support for data exchange.
    Mr. BERG. Thank you. Just one quick follow up. How do we 
encourage agencies to move in this direction? Is there 
something we can do?
    If you said there was one thing that could be done by 
Congress to encourage that, what would it be? Other than more 
money.
    Ms. ROY. We appreciate support in getting the word out, 
that NIEM is a tool for your constituents to use for better IT 
connections, for better sharing.
    We appreciate increased outreach on this. We are getting 
great support from the Federal CIO Council for the Federal 
agencies. Every time we see a Federal agency adopt, we see a 
ripple effect in the state and local agencies that also 
exchange information with the Feds.
    I would say continued outreach and understanding that this 
is a valuable program that can help significantly increase 
mission performance.
    Mr. BERG. Thank you. I will yield back.
    Chairman DAVIS. I thank the gentleman. I would like to 
welcome now a distinguished member and long-serving member of 
the Ways and Means Committee, the Chairman of the Subcommittee 
on Health, the gentleman from California, Mr. Herger. Thank you 
for joining us today.
    Mr. HERGER. Thank you, Mr. Chairman. I appreciate an 
opportunity to sit on the panel.
    Mr. Sheldon, today there has been a lot of discussion about 
the positive of information sharing, but I want to bring it 
back to an issue that is easily overlooked and potentially more 
important.
    I want to discuss the safeguards that should be in place to 
ensure that the personal data of program beneficiaries is kept 
secret.
    As you may have heard from recent news reports, 
California's Department of Child Support Services lost 
computerized storage devices that were being transported as 
part of a disaster recovery task last month.
    These devices held the personal data of 800,000 parents, 
guardians, and children, compromising their names, addresses, 
driver license numbers, Social Security numbers, health 
insurance, and employer information.
    The news reports of the incident are extremely troubling. 
We do not have much information other than the devices went 
missing somewhere between Colorado and California.
    I want to make sure this security lapse is taken seriously 
by the Government agencies involved as by the families whose 
personal information has been lost.
    I would like to know what safeguards states operating child 
support enforcement and other Federal programs are required to 
have in place to protect personal data.
    Has HHS looked into the incident in California, and if so, 
did California's Department of Child Services violate any of 
the safeguards that should have been in place?
    Mr. SHELDON. Congressman, I could not agree with you more. 
Our child support enforcement efforts nationally have had a 15 
year unblemished record in terms of protecting data.
    We do take what happened in California extremely seriously. 
We immediately reached out to California when it came to our 
attention to determine, number one, the nature of the loss, 
what information was lost, and the level of data exposure.
    We are still working with them. I have asked that we go 
back and look at our safeguarding protocols we are requiring of 
states. I have been assured there are a lot of protocols in 
place in terms of making sure that states comply with 
confidentiality.
    I want to make sure we are doing everything we can in this 
area. We will continue to work with California.
    The information that we have gotten back to date indicates, 
I think, there were five canisters lost. One of those has been 
regained. We requested that the state immediately identify the 
individuals, notify those individuals of the potential breach, 
and that is ongoing as we speak, I believe.
    Mr. HERGER. Mr. Sheldon, could you tell me, what does your 
agency plan to do going forward to prevent this type of lapse 
from happening again?
    Mr. SHELDON. Well, the first thing that we are doing is we 
are working to make sure that states are meeting the current 
safeguard requirements that we have in place.
    We currently are doing routine monitoring of states. We 
will increase that monitoring on an ongoing basis.
    I think quite frankly we also are identifying through a lot 
of those routine efforts if there is any unauthorized use of 
information.
    We are employing technical assistance teams to work with 
states in this arena.
    I share your concern because I think this was a serious 
breach, and we are trying to double our efforts in working with 
states and holding them accountable.
    Mr. HERGER. Mr. Sheldon, I appreciate your taking this 
seriously. Again, it is difficult to comprehend how something 
like this could happen.
    Mr. SHELDON. This was, as I understand it, an emergency 
disaster exercise. To have this happen on that kind of exercise 
is in itself problematic. The purpose of those exercises is 
just the opposite.
    I would point out the state did have back-up information, 
so there was no loss on the part of the state. Exposing 
confidential information of individual citizens, however, I do 
think, is cause for serious alarm.
    Mr. HERGER. Well, again, I appreciate that. It is very 
important, as you can understand, number one, to understand how 
this could happen in basically a mock up trial. Imagine what 
would happen if there was an actual emergency.
    I think you can understand how it is very important that we 
check and double check and make sure this does not happen 
again.
    Again, I thank you very much.
    Mr. SHELDON. Mr. Chairman, what I would like to do is get 
back with you as we proceed so you know exactly what steps we 
are taking as it relates to this particular breach.
    Mr. HERGER. I would appreciate you doing that. Thank you 
very much. Mr. Chairman, thank you.
    Chairman DAVIS. I thank the gentleman. I want to thank both 
of our witnesses, Ms. Roy and Secretary Sheldon from the 
Administration, in helping us understand the issue further.
    If members have additional questions, they will submit them 
to you in writing, and we would appreciate it if you would also 
give us a copy of that so we can submit it into the official 
record.
    I want to thank you again. We look forward to continuing to 
work with you on improving data standardization to reduce costs 
and improve performance in the Government.
    With that, this concludes the first panel of the hearing. I 
would appreciate it if the second panel would come forward. 
Thank you very much.
    Now we will go ahead and begin the second panel. I 
appreciate our witnesses being here today.
    We will hear from Mr. Robert Doar, Commissioner, Human 
Resources Administration for New York City.
    Ginger Zielinskie, Executive Director of Benefits Data 
Trust.
    Mr. Darryl McDonald, Executive Vice President of Teradata 
Corporation.
    Campbell Pryde, President and Chief Executive Officer of 
XBRL US.
    Appreciate you taking time out of your schedules to join us 
here in Washington.
    Mr. Doar, would you please proceed with your testimony?

    STATEMENT OF ROBERT DOAR, COMMISSIONER, HUMAN RESOURCES 
                 ADMINISTRATION, NEW YORK CITY

    Mr. DOAR. Thank you and good morning, Chairman Davis, 
Ranking Member Doggett, and Members of the Committee.
    I am Robert Doar, head of New York City's largest social 
service agency, HRA.
    Due to the structure set up in New York State, I help to 
manage over $39 billion in resources in an array of programs, 
including TANF, SNAP, Medicaid, and child support enforcement.
    Mayor Michael Bloomberg has made it a top priority to break 
down silos between city agencies, so that we can improve the 
quality of services to the millions of participants in our 
programs, and to properly administer and protect city, state 
and Federal tax dollars.
    He drew from his work in the private sector and saw we 
needed a better computer system to manage eight health and 
human service agencies with 80 different case management 
systems serving more than three million recipients and 
reporting to different state and Federal oversight agencies.
    In 2008, we embarked upon HHS-Connect to basically create a 
system to share information across multiple services, multiple 
agencies, so we could better serve our citizens and clients.
    A key was the strong leadership provided by the Deputy 
Mayor for Health and Human Services, Linda Gibbs, and the 
emphasis placed on this program on all commissioners in human 
services and city government.
    Presently, there are two major functions of HHS-Connect 
that are underway. Client access to information about benefits 
and services and worker access to better data and realistic 
view of the client.
    ACCESS NYC is the client portal. It is a screening tool to 
self screen for more than 30 city, state and Federal human 
services benefit programs.
    Applicants can also apply on line for SNAP, school meals, 
and senior citizens and disabled rental increase exemption 
programs.
    Recently, Medicaid renewals were added to the site, and 
since we began, 100,000 SNAP applications have been submitted 
on line.
    To better assist clients on the worker side, we created 
Worker Connect, to share information among agency workers. It 
is a secure read only web based application that allows select 
city workers to access a limited set of information from 
multiple data sources through one point of entry.
    The basic technical elements are a common client index and 
a document manager. The common client index is the initial 
process to link the client's identity within any of the 
participating agencies.
    The identifier is used to data mine details such as benefit 
information, case composition, and employment history, and 
display them to workers.
    The document management is simple but has been very useful 
across agencies, an electronic repository of documents 
submitted by HRA clients when they apply for our benefit 
programs.
    On the program side, the key benefit of HHS-Connect is how 
the information can be used. In our child welfare agency, they 
regularly use Worker Connect. Child welfare workers use it to 
quickly identify and locate children and guardians they have 
difficult finding but are known to other city agencies.
    Often times, the reports child welfare workers receive from 
a central registry are missing critical identifying 
information, especially when they are called in by anonymous 
sources.
    Worker Connect has alerted staff to the identity of 
household members and the existence of another parent or other 
children who may be at risk.
    It has also been useful to our homeless agencies' intake 
facilities, where families showing up at the facility often do 
not have easy access to much of their documentation.
    My agency also uses Worker Connect as an additional tool to 
identify fraud, abuse, and improper payments within public 
assistance programs.
    We use it for eligibility verification, to quickly and 
accurately identify inconsistencies, particularly unreported 
income, between information provided to us on applications and 
that which has been submitted to other agencies.
    In the future, we hope to use it to help identify patterns 
of potential fraud and abuse within the public assistance 
programs we administer.
    I need to be clear that information sharing was not 
undertaken lightly. There is an over arching requirement that 
access to information is only granted in compliance with all 
applicable laws and regulations.
    We strictly adhere to Federal, state and local laws 
governing the protection and use of confidential records 
maintained by our social services agencies.
    I believe there is definitely a role for the Federal 
Government to help in this area so that every other state or 
city trying to identify what data can be shared is not 
overwhelmed with legal analysis and forced to recreate the 
wheel time and again.
    I also believe that we need to be careful to recognize that 
the sharing of data is not synonymous with the sharing of 
eligibility rules.
    Although we strive to make sure that low income individuals 
and families have appropriate access to benefits for which they 
are eligible, we need to be mindful of unintended consequences.
    Every program has different standards for how to consider 
resources and income and ultimately determine eligibility, and 
many of these differences are appropriate given the different 
goals of the programs. Therefore, discussions as to what extent 
programs that share common data or clients should share the 
same eligibility standards needs to be approached 
strategically.
    I thank the Committee and the Chairman for all of your work 
on addressing this important issue, and for moving this 
important agenda forward.
    Thank you.
    [The prepared statement of Mr. Doar follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman DAVIS. Thank you, Mr. Doar.
    Ms. Zielinskie, you are recognized for five minutes.

 STATEMENT OF GINGER ZIELINSKIE, EXECUTIVE DIRECTOR, BENEFITS 
                           DATA TRUST

    Ms. ZIELINSKIE. Congressman Davis, Congressman Doggett, 
Members of the Subcommittee, thank you so much for the 
opportunity to testify today and for your ongoing work in 
regards to the Standard Data Act.
    I would like to start today by sharing a quote with you 
from one of our clients, a 58 year old unemployment insurance 
exhaustee who was eligible for more than $200 a month in SNAP 
benefits.
    ``I was so shocked when I received your call. In the past 
three weeks, I have gone through three failed job interviews 
and I felt like a failure. This benefit amount is equivalent to 
my monthly mortgage payment. I am so glad you did not let me 
drop through the cracks.''
    Benefits Data Trust is a national not for profit 
organization committed to transforming how people in need 
access public benefits.
    We have successfully completed over 280,000 benefit 
applications on behalf of low income Americans through the use 
of data sharing strategies to target outreach and streamline 
the application process.
    Maximizing private sector targeting outreach strategies, 
Benefits Data Trust has been able to utilize more than 20 
different targeted Federal and state government agency data 
sources to conduct national, statewide and regionally-based 
outreach.
    We all know that data driven strategies can and should 
combat fraud and create efficiencies in the verification 
process.
    I would like to share with you today five key points on how 
and why, right now, without prohibitive investments in 
technology, data sharing can and should be used to increase 
access to public benefits for the people who need it most.
    First, data sharing strategies can create vast 
opportunities to conduct targeted, cost effective outreach.
    Federal and state agencies can share enrollment data 
internally, across departments, and with business and not for 
profits to generate targeted outreach lists of millions of 
individuals who are highly likely eligible and not enrolled in 
benefit programs.
    For example, in 2010, working with the Pennsylvania 
Department of Labor and Industry and Department of Public 
Welfare, BDT identified 80,000 unemployment insurance 
exhaustees commonly known as ``99er's,'' who were likely 
eligible and not enrolled in SNAP.
    The three entities developed comprehensive data share 
agreements and a process to generate an automated monthly file 
of new exhaustees eligible for this outreach.
    The targeted outreach achieved initial response rates of 25 
percent. In comparison, standard direct marketing delivers 
response rates of closer to one percent.
    Results show that many individuals we help are not familiar 
with the safety net system at all, and have never needed help 
before.
    Nationally, in the last year, more than 5.5 million people 
have exhausted their unemployment insurance benefits. This 
illustrates the tremendous opportunity and responsibility we 
have to help folks grappling with the recent economic 
recession.
    Second, data sharing strategies can streamline the 
applications process and create express lane eligibility 
opportunities.
    In Philadelphia, Benefits Data Trust receives an automated 
monthly data file of individuals 60 and older who were recently 
enrolled or were re-certified for Medicaid and not enrolled in 
SNAP.
    Since income, residency and Social Security number or non-
citizenship status were just verified by the same department, 
an individual does not need to provide proof of these elements 
on their SNAP application.
    Therefore, eligible individuals are able to apply for SNAP 
in one phone call without having to provide any additional 
documentation. This dramatically streamlines the application 
process for the applicant and the verification process for the 
administering agency, reducing the cost of outreach, 
application assistance, and eligibility determination.
    New enrollment or recertification in Medicaid, TANF, heat 
assistance, or the earned income tax credit approval, is an 
opportune moment to help people access other benefits they need 
and create express lane eligibility opportunities.
    Third, increasing access to public benefit programs for 
people who are eligible, especially seniors, helps individuals, 
strengthens our local economies, and reduces long term national 
health care costs.
    Fourth, data driven strategies can cut outreach and 
application assistance costs by more than 70 percent.
    Fifth, there are several actions that the Federal 
Government can take to make it easier for Government, business 
and not for profits to utilize data sharing strategies.
    The Federal Government can take a proactive approach by 
setting guidance around standard data share and data security 
provisions. This will immediately provide Government agencies, 
business and not for profits clarity on how to share and 
protect data.
    Continuing to fund technical upgrades and integrations of 
state systems as well as projects that utilize data driven 
approaches to outreach and enrollment will continue to enhance 
improvements in this area.
    I would like to end with one last quote from an 82 year old 
woman whom we were able to apply for both food stamps and the 
low income subsidy.
    ``I do not even know how you found me. My husband died of 
Alzheimer's and we both worked all of our lives. His treatment 
ate up all of our money. Thank you so much.''
    [The prepared statement of Ms. Zielinskie follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman DAVIS. Thank you very much, Ms. Zielinskie.
    Mr. McDonald, you are recognized for five minutes.

    STATEMENT OF DARRYL MCDONALD, EXECUTIVE VICE PRESIDENT, 
                      TERADATA CORPORATION

    Mr. MCDONALD. Good morning, Chairman Davis and 
distinguished Members of the Subcommittee, and thank you for 
the opportunity to testify here today.
    I am Darryl McDonald representing Teradata Corporation. For 
30 years, Teradata has redefined the lead of database 
technology and the use of advanced analytics.
    Among the nearly 1,400 Teradata customers, companies such 
as eBay, Wal-Mart, Wells Fargo, Caterpillar, and AT&T, have 
learned how to recognize data as their most valuable asset by 
transforming that data into useful information.
    These same approaches can be applied to the Government.
    My testimony today will focus on how applying advanced 
analytic solutions to massive data sets or big analytics helps 
Federal agencies meet complex, large scale mission demands 
despite unprecedented budget cuts and infrastructure.
    It is important to remember that big analytics are not 
futuristic or incomprehensible. In fact, one of the best known 
example is from Major League Baseball, the 2002 Oakland A's.
    As described in the book ``Moneyball: The Art of Winning An 
Unfair Game,'' and the subsequent movie and feature film, the 
A's used data analytics to more effectively compete against 
other teams using less money.
    A lesser known example is from one of our state government 
customers found in Michigan. Since 1996, the State of Michigan 
has been creating their enterprise data warehouse which 
supports reduced health care costs and a 25 percent reduction 
in administrative costs.
    The Michigan enterprise data warehouse has also aided the 
state in many ways, including doubling the recoveries for 
Medicaid fraud, moving from last to first in child immunization 
rates, and identifying more than $70 million in fraudulent 
child care.
    Imagine the benefits achieved by Michigan at the scale of 
Federal Government.
    Giving Federal decision makers the ability to utilize all 
the data on hand to find underlining insights is essential for 
effective risk management, cost containment, and mission 
success.
    Rather than making weak decisions with data sampling, big 
analytics utilized all the available data to enable fact based 
decisions. Big data analytics cuts analysis time from weeks or 
months to near real time and enables continuous improvements to 
meet changing technology, regulatory and mission needs.
    As one of the world's largest creators and consumers of 
data, the Federal Government will see its long term future of 
success or failure linked to how well it addresses big data.
    Teradata has numerous and varied success stories of helping 
clients integrate and understand and leverage big data at the 
Federal and state levels, within and outside the U.S.
    For example, the U.S. Department of Agriculture's Risk 
Management Agency has successfully applied data and analytics 
within the Federal Crop Insurance Program, by bringing together 
disparate data to identify and combat fraudulent claims, the 
agencies have saved the American taxpayers approximately $838 
million in improper pay outs from 2001 to 2011, with cost 
avoidance estimated at $1.5 billion.
    Another example is the U.S. Transportation Command. The 
Legacy information systems used by Transportation Command 
limited the visibility to historic and current shipment and 
arrival detail.
    Today, data from 33 different systems is integrated to 
improve decisions with near real time visibility across the 
Department of Defense.
    A final example is the Centers for Medicare and Medicaid 
Services and the CMS Data Dashboards. Completed within five 
weeks, the initial Dashboard was launched early because among 
other reasons, the historical claim data was housed in a single 
system.
    With many organizations seeing tremendous benefit, a 
logical next question is how do we motivate more Government 
agencies to adopt big analytics?
    In that respect, Mr. Chairman, the timing of this hearing 
could not be better. Teradata strongly supports H.R. 3339 and 
respectfully requests Congress to pass this legislation.
    Not only would this legislation improve cost effective 
delivery of essential services to millions of Americans, but it 
would also create a stepping stone for other Government 
agencies to understand and acquire the benefits of big 
analytics.
    Consider the lessons from Moneyball. If analytics can 
change a hundred year sport like baseball, think of the 
possibilities for Government.
    Once again, Mr. Chairman, thank you for your continued 
leadership on this issue, and Teradata stands ready to support 
you and your colleagues.
    Thank you.
    [The prepared statement of Mr. McDonald follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman DAVIS. Thank you very much, Mr. McDonald.
    Mr. Pryde?

  STATEMENT OF CAMPBELL PRYDE, PRESIDENT AND CHIEF EXECUTIVE 
                        OFFICER, XBRL US

    Mr. PRYDE. Chairman Davis, Ranking Member Doggett, and 
Members of the Subcommittee, thank you for inviting me here to 
discuss the use of standards to improve Government reporting.
    I am Campbell Pryde, President and CEO of XBRL U.S., a non-
profit organization established to support the implementation 
of standardized business reporting by Government and business 
through marketplace collaboration.
    I applaud you and the other Members of Congress who are 
striving to make Government more effective and efficient by 
using data standards.
    I will briefly discuss one such standard, the Extensible 
Business Reporting Language or XBRL.
    XBRL is a data standard that is used to communicate 
financial and performance related data by both business and 
Government.
    The objective of XBRL is to enable compatibility and 
comparison of the data that is being standardized.
    Shipping containers are an useful analogy to demonstrate 
the importance of data compatibility. The standard shipping 
container revolutionized the way that products were transported 
from the manufacturer to the consumer. It increased the speed 
of delivering products to market and reduced perishable waste. 
It reduced transfer costs between ships, trucks and rail.
    No longer did it separate products, have to be manually 
loaded onto trucks, reset onto ships, and off loaded onto 
trains.
    This also drastically reduced loss through theft.
    It ultimately changed the design of ships and trains to 
accommodate the new shipping containers allowing both ships and 
trains to carry far more cargo.
    Finally, it reduced storage costs because cargo is moved 
more quickly and it can be stacked at storage facilities.
    All of these gains were the result of developing a global 
standard for shipping containers. The manufacturers, the 
shipping companies and the transportation companies realized 
that they could drastically reduce handling costs with a simple 
standardized solution that was compatible between trucks, 
trains and ships.
    Today's management of financial reporting data in 
Government resembles the transport industry before the 
introduction of the shipping container.
    The implementation of data standards such as XBRL can 
improve the speed, reduce the transfer costs between systems, 
allow more data to be moved and reduce storage costs by 
allowing storage in one format.
    In addition to compatibility, data standards also 
facilitate the comparison of data. By standardizing financial 
and performance data, it can be quickly compared. This allows 
data to be easily aggregated and disaggregated, giving the 
users the ability to disaggregate or drill down into 
information, providing improved transparency and the ability to 
compare, for example, the relative performance of recipients of 
Federal funds.
    It is important, however, that everyone uses the same 
standard. Standards, just like electrical plugs, are 
standardized within countries, but unlike the shipping 
container, the electrical plug standard is not global. This 
lack of standardization requires the need for adapters and 
transformers to use the same product across countries.
    The use of different data standards across agencies will 
result in the same problem.
    Some recent legislation has suggested the use of XML as a 
reporting standard. XML is a flexible data standard that like 
electrical plugs can use different formats to deliver 
electricity, or in this case, information.
    Allowing agencies to use their own variants of XML to 
communicate financial reporting data will result in data 
compatibility issues between agencies and will minimize the 
ability of taxpayers or policy makers to efficiently analyze 
such information.
    XBRL is a specific data standard and ensures that reported 
financial information is compatible and comparable across all 
agencies.
    Moreover, XBRL eliminates the need for adapters or 
transformers to transfer the comparable financial data between 
users.
    Standards like XBRL will ensure that financial and 
performance information can be transported in a cost effective 
and timely way from creation through to analysis.
    This will enable you as policy makers to monitor and track 
Government spending as well as use up to date financial 
information to make appropriate future allocation decisions.
    It will also allow the Federal, state and local agencies 
and other recipients of Federal funds to analyze how those 
funds are used.
    Most importantly, using data standards like XBRL to 
communicate this information will reduce costs, increase speed, 
increase transparency, and increase the effectiveness of 
taxpayer dollars spent.
    XBRL U.S. has vast experience and expertise in XBRL 
development through our work with the SEC and the FDIC. We are 
ready and available to help Congress and those in the Federal 
and interested state agencies in this important initiative.
    Thank you again for having us here today, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Pryde follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman DAVIS. Thank you very much, Mr. Pryde. I 
appreciate all of your testimony. We appreciate your 
perspectives on this important topic.
    Before we move to questions, I would also like to insert a 
letter from the Kentucky Society of CPAs into the record, 
without objection, so ordered.
    [The information follows: The Honorable Geoff Davis]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman DAVIS. When we started this data standards effort, 
it was based on a question about what was going on in programs 
under the jurisdiction of the Committee.
    For me, from a personal perspective, to give you an idea, 
coming from the private sector, working with data integration 
in a retail business to business environment, early in the 
standardization with electronic data transfer, before the 
Internet fully stood up, and then saw the beginning of that 
coming in, I sat down with the Subcommittee and I asked a 
question as the new Chairman, how do I get a cost rule up?
    For those in the audience who might not be familiar with 
that, the idea of saying if I take what would be called a 
``vendor master,'' similar to what the gentlewoman, Ms. Roy, 
from NIEM talked about with data matching across standards, 
trying to find out exactly if we had the means of understanding 
who was on all of what programs with one given record, similar 
to some of the initiatives Mr. Doar is taking.
    The answer was that we cannot do that. That literally was 
the genesis moment from years of discussion about data 
standardization to move forward and talk about this.
    I appreciate all of you being here. We knew there was a lot 
of program overlap within our programs that creates additional 
cost in overhead, takes away taxpayer dollars, and does not 
help beneficiaries.
    We also knew there were serious questions about program 
effectiveness that current data could not successfully answer, 
especially when there are multiple programs that are involved, 
and the data standardization effort that we put in place will 
eventually get us to the point of being able to address these 
questions and concerns, we believe.
    So far, we have made considerable progress with child 
welfare, with Temporary Assistance to Needy Families, with 
Unemployment Insurance, and hopefully soon, child support 
enforcement.
    However, if we are going to take a beneficiary-centered 
approach to better using data standards in the administration 
of public benefit programs, it needs to be the most complete 
view, and that probably means programs outside the jurisdiction 
of this Subcommittee, like food stamps, Medicaid, housing, 
Medicare and Social Security.
    Mr. Doar, I will start with you. As we look to expand this 
effort, from your experience, what human service programs 
should we seek to include in this effort?
    Mr. DOAR. Well, the one we struggle with the most is 
schools. Those may be beyond your jurisdiction.
    Chairman DAVIS. We would be glad to bring that under the 
jurisdiction.
    Mr. DOAR. The data concerning children in the New York City 
Public School system is very firm. They are not participating, 
and they feel constrained, that they cannot participate.
    I think data concerning enrollment and what is happening in 
schools would be good for us in social services and it would be 
good for them in education.
    That would be the area that we are most frustrated by at 
this point.
    Child support enforcement is great. We have food stamps. We 
have Medicaid. We have cash assistance. We have housing.
    The one that we struggle with is schools.
    Chairman DAVIS. I appreciate your perspective. My wife and 
I have volunteered with kids and families on the edge for over 
25 years.
    The one consistency, particularly now, is our oldest 
daughter is a school teacher dealing with at-risk children, and 
I am sure it is the same phenomenon in New York as in our small 
little part of the world, moving to multiple schools sometimes 
within a year, even within the schools, they cannot share 
information about the kids which creates a real educational 
challenge as well, not to mention the lack of connectivity.
    Ms. Zielinskie, your organization works primarily with 
seniors, correct?
    Ms. ZIELINSKIE. That is correct.
    Chairman DAVIS. What are the most common combinations of 
programs that seniors are usually eligible for but they may not 
receive?
    Ms. ZIELINSKIE. Sure. To help seniors reach and maintain 
economic security, we really need to look at housing, health 
care, and basic living costs.
    Obviously, housing is the biggest indicator of whether or 
not an individual will be able to reach and maintain economic 
security. That would also include heat assistance or LIHEAP.
    Second, we talk about health care. Obviously, if we take a 
look at poverty among seniors and actually include health care 
costs in that calculation, millions of seniors are in poverty 
and struggling to meet their health care costs.
    In addition, there is also the cost of food.
    Combining those programs as we take a look at helping low 
income seniors in America is critical.
    Chairman DAVIS. Mr. Doar or Ms. Zielinskie, either one, is 
there certain program data that you wish you had that could 
further streamline your organization's efforts?
    Ms. ZIELINSKIE. Yes.
    Mr. DOAR. In my case, the other area that is a constraint 
is the Social Security Administration. While a lot of what we 
have done with HHS-Connect was limited because some data we get 
is a result of previously established matches with the Social 
Security Administration, and to the extent that we got data 
from them through a match, there are very strong prohibitions 
against our ability to share what they gave us outside our 
area.
    That is a problem. That leads HHS-Connect to not be 
complete, so a worker could look and see if there is any 
information, but could not be sure that by it not being there 
on a particular case that it is not there somewhere, if we got 
it from SSA.
    That would be another area where this initiative could be 
even more successful if that kind of Federal guidance allowed 
us to go in that direction.
    Chairman DAVIS. Thank you. Ms. Zielinskie, briefly.
    Ms. ZIELINSKIE. Sure. That being said, I think the Medicare 
Improvement for Patients and Providers Act or commonly known as 
MIPPA, has made great strides in how Social Security and the 
Low Income Subsidy data has been able to be shared with the 
states.
    I think when you start talking about challenges relating to 
access points of which data is available, it gets down to 
talking with states and lawyers about what is able to be shared 
and how it can be used.
    It is not necessarily the data set so much it is an 
opportunity for access. Obviously, Medicaid is going to be the 
most telling in terms of if we are really talking about 
reaching the poorest individuals to receive support.
    It is more about guidance around how different agencies, 
business and community partners can share data while also 
protecting an individual's privacy rights.
    Chairman DAVIS. Great.
    Mr. DOAR. Mr. Chairman, can I just add also, when we put 
Medicaid data on HHS-Connect, we only put the fact that they 
are eligible or receiving, they are a Medicaid recipient.
    Claims data is also very strictly limited in our ability to 
share. In many contexts, particularly with very vulnerable 
people, people who are high users of Medicaid, knowing the 
extent to which they are taking advantage of Medicaid provider 
services and those services are being claimed on their behalf 
would be very helpful in both limiting costs and getting better 
care.
    Chairman DAVIS. I appreciate the perspective that both of 
you have shared. I would say we met early on with the Inspector 
General, the Social Security Administration, and I think in all 
of the agencies we met with, the leadership understands the 
importance of sharing.
    There may be some issues that have to be addressed 
statutorily that would legitimately protect privacy but allow 
enscripted data be shared with those who are receiving the 
service as well. That will be a continued discussion as this 
implementation moves forward.
    With that, I would like to recognize the gentleman from 
Washington State, the former Chairman of this Subcommittee, Mr. 
McDermott, for five minutes.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. I want to commend 
Mr. Davis. We are going to miss you because this issue of data 
is a huge problem.
    I go back to the days in the State of Washington when we 
tried to put welfare/mental health data on a database so that 
when a mental patient showed up in this clinic and then showed 
up in that hospital, then showed up across the state, we would 
have some way of someone knowing what had happened before. We 
ran into all kinds of problems.
    I also have spent a lot of time in trying to get data in 
the military medical system and the Veterans Administration 
medical system to talk to one another.
    You have a proprietary system in the military that does not 
talk to the publicly developed system in the VA.
    A guy gets blasted in Afghanistan and gets put out of the 
Army and into the VA, his medical records--if you go to the 
hospital in Seattle, the doctors are sitting there with two 
computers. One with the military system and one with the VA 
system. It is absolutely insane.
    This data thing, it would make better health care, it would 
make better all of our social systems, so I commend Mr. Davis 
for bringing this.
    What I am interested in, Ms. Zielinskie, is this. You are 
talking Pennsylvania. How wide across the country, does your 
organization work in other states doing this, or are there 
agencies in all the 50 states? How is it working to use this, 
what you are trying to do is looking for people eligible for 
benefits.
    Ms. ZIELINSKIE. Correct.
    Mr. MCDERMOTT. You are using whatever data system. Tell me 
what is going on in the rest of the country. You are our only 
window into the 50.
    Ms. ZIELINSKIE. Thank you. Thank you for the question.
    We have actually been able to conduct outreach nationally, 
and we have been able to conduct outreach in other states in 
addition to Pennsylvania and are exploring opportunities in 
some of our partner states.
    I think to your point, different states have different 
make-ups or the puzzle of how their data sits. The information 
that we seek to gain access to is not terribly deep.
    It is very possible to pull automated files once you start 
getting to the right data folks that are in the different state 
departments.
    It crosses agencies and the landscapes are different, so 
where food stamps sits and where Medicaid sits--how it is set 
up in New York City is not necessarily how it is set up in 
Pennsylvania or Virginia or New Mexico.
    Mr. MCDERMOTT. Let me ask a question, a specific question. 
It is an issue you brought up, which is one that has troubled 
me because of this Committee.
    You have the people who have had middle class experience, 
and they lose their job, and 99 weeks later, they come to the 
end of that and they have nothing.
    Ms. ZIELINSKIE. Yes.
    Mr. MCDERMOTT. They have no idea of the social service 
system, number one. Number two, they are too embarrassed to go 
over to the welfare office and see if they qualify or wherever 
you have to go on this food stamp stuff.
    How does it work for states trying to find those people or 
most states just saying if we do not hear about it, we do not 
need to worry about it? How are they dealing with the 99er's 
who are out there eating into their 401(k)'s to keep a house 
but are eligible for food stamps?
    Ms. ZIELINSKIE. I think there is a wide variety in what 
different states are doing. I do not have necessarily that 
information here, but would be more than happy to get back to 
you about other efforts.
    I know there are a lot of other national advocacy 
organizations engaged in talking about 99er's.
    To your point, about 45 percent of the folks that we help 
with the unemployment insurance exhaustee outreach project are 
over the age of 50. Exactly what you are saying--they are 
spending down their small nest egg. They never thought they 
were going to be in the situation that they have found 
themselves in. These are the individuals that are in great risk 
of foreclosure.
    How it all connects is very integrated. I almost pulled a 
quote of an individual who is an MBA, and for two years, he has 
been searching for a job. It was a challenge for him to 
overcome the stigma and pride and call us. Obviously he is a 
hard worker if he was able to get an MBA--and now all of a 
sudden he is in need. Overcoming that stigma is something that 
I think illustrates how important it is to not only think about 
data in terms of fraud and creating efficiencies, but also that 
it is absolutely critical to think about it in terms of how we 
can help folks that are teetering on falling into poverty.
    Mr. DOAR. I would just add the programs that we run in New 
York City are well known to the populous. There is lots of 
promotional activities that go on. Food stamps, USDA is running 
advertisements promoting food stamp benefits.
    The number of people who take advantage of these benefits 
are quite large now in the City, food stamps and Medicaid 
particularly.
    In the case that you talk about, people who exhausted 
unemployment insurance tend to turn to health insurance, public 
health insurance first, and perhaps food stamp benefits, and 
then last, TANF.
    The other thing is that in New York City, the Mayor 
continues to have an expectation that people who are struggling 
should work and personal responsibility matters.
    We have to be careful about the extent to which we are 
overly promoting the receipt of public assistance as a 
substitute for personal responsibility and employment.
    Mr. MCDERMOTT. Could I ask one more question?
    Chairman DAVIS. Briefly, yes.
    Mr. MCDERMOTT. Yesterday, we eliminated the Social Services 
Block Grant. How much of that comes to your Department and what 
is it used for?
    Mr. DOAR. Well, at HRA, the Adult Protective Services 
Program is a program that serves our most, most vulnerable 
populations. We have about 9,000 people who have been 
determined unable to care for themselves in any way.
    That is a program we are going to have to run, and people 
are going to have to serve, 75 percent of the funding for that 
program in HRA comes from the Federal Government.
    To the extent that we get less SSBG money for Adult 
Protective Services, the Mayor will have to make up the 
difference, and that is a fiscal burden on us, and it is not a 
population we can neglect, it is a particularly vulnerable 
population.
    I think from the Mayor's perspective, if he had a choice of 
Federal programs that are in need of reduction, that might not 
be the first one, particularly as it affects Adult Protective 
Services.
    Mr. MCDERMOTT. Thank you.
    Chairman DAVIS. The gentleman's time has expired. The Chair 
now recognizes Mr. Paulsen from Minnesota for five minutes.
    Mr. PAULSEN. Thank you, Mr. Chairman. To the panel, there 
was recently an announcement for this year's Human Services IT 
Conference, it is called ISM, and the announcement listed 
sessions on the usual new service delivery models, emerging 
technologies, and general best practices.
    What caught my eye and drew a little bit of attention, I 
think, was the session description that said this ``The era of 
big data has arrived at ISM. State and Federal agencies are 
looking to advanced data analytic capabilities, improvement 
predictive modeling, to reveal patterns of behaviors and 
outcomes that were previously buried in mountains of data. ISM 
2012 Data Analytic Sessions show how big data can turn into big 
discoveries.''
    Mr. McDonald, how are big analytic efforts different than 
what our agencies are doing now, and do you agree this is what 
agencies should be doing in the future? Is this the direction 
to go?
    What is the difference between data and data analytics 
today versus 30 years ago?
    Mr. MCDONALD. Sure. The answer is yes. I think what is 
happening is the amount of data is doubling extremely fast, 
just from traditional organic data.
    With all the new digital data that is being created and 
leveraged across the different agencies, you can imagine the 
data that they are having to wrestle with is overwhelming.
    You really have to start looking at instituting business 
rules and analytics to help mine that data based upon the kinds 
of goals that you set and the outcomes you want to get, and 
more importantly, how do you push that out to the front line 
Government workers so they are able to make decisions more 
quickly on things that cross in front of them.
    I would say today people are overwhelmed with data and we 
have to use technology to take that overwhelming aspect out of 
it and try to give them the actions they should take based upon 
what is sitting in front of them, and again, whether it is 
private corporations or Government agencies, they are all 
struggling with this.
    I would say what has happened is the amount of data has 
changed over the past 30 years, but more importantly, the 
complexity of it has changed as well.
    As you talk about this unstructured to big data, it really 
is marrying up new data types with traditional data types which 
says you have to understand how to read and integrate both, but 
more importantly, take that confusion out of it, simplify it, 
and give people on the front lines the types of activities and 
actions they should take based upon what rules you set in place 
and the outcomes you want to get.
    Mr. PAULSEN. Let me ask this for the rest of the panel 
because we are going to find a lot of information obviously in 
these mountains of data that are out there.
    Ms. Zielinskie, I think in your testimony you mentioned 
that we are going to be able to connect individuals to 
benefits, they may not have been getting these benefits before, 
we are going to be able to tie that together.
    How about the converse? Will we be able to make strives 
down the road to make sure only, for instance, people that are 
eligible for programs like low income people that are able to 
get welfare benefits get those benefits, that programs that 
require work activity, can we ensure that actually happens?
    Can we tie the data in that fashion to make sure we are 
going to see some progressive results there?
    Ms. ZIELINSKIE. I think there is absolutely opportunity to 
be comprehensive in how we use data. We certainly do not want 
to have people who are not eligible for these programs 
receiving them.
    That being said, we want to make sure that people who are 
eligible are able to access them so they can get themselves out 
of poverty and to self sufficiency.
    Certainly there are accuracy components of using data. If 
we look at, for example, SNAP in Pennsylvania, there is a 
payment accuracy challenge of one-tenth of one percent. There 
is a fraud issue of one-tenth of one percent.
    I think that it is critical that when we are talking about 
data that we do not just talk about it in the frame of fraud. 
We also talk about it in terms of making sure we are helping 
the right people in a comprehensive way so they can get out of 
poverty.
    Mr. PAULSEN. Mr. Doar, in terms of waste, fraud and abuse?
    Mr. DOAR. Yes, we absolutely see the benefits of this kind 
of sharing of data to see the inconsistencies in income 
reporting and work status and household status that would allow 
us to be sure our programs are being expended correctly.
    The most exciting use of big data from our standpoint in 
the City is the potential use to identify households where 
there is a potential child welfare issue in the future.
    You could use data to find what are risk factors in advance 
of unfortunate circumstances happening.
    That is where I think right now we are trying to find what 
tells a child welfare protective services worker, what do they 
need to know that would lead them to say this is a more 
potentially at risk family than another family, so we can 
prevent tragedies from occurring.
    Mr. PAULSEN. Thank you, Mr. Chairman. I yield back.
    Chairman DAVIS. I thank the gentleman. The Chair now 
recognizes Mr. Berg from North Dakota for five minutes.
    Mr. BERG. Thank you, Mr. Chairman. I am not sure exactly 
where to start, but it keeps coming back to me that nothing 
measured gets managed, and I think out there, nothing that is 
measured, it will not get managed unless it is measured, but it 
will not get managed unless it is looked at.
    That is what I cringe at, just the mountain of information, 
a lot of really great information that would really help us as 
policy makers make decisions when we get to the point where we 
are going to make decisions.
    I am looking at kind of the big picture. My question really 
relates to standardization. Again, kind of boiling this down, 
we are going to look at a program and we make a big effort to 
really look at that program, but within our scope, there are so 
many other programs that affect that individual that is within 
that program, and yet we are just kind of looking at that 
program somewhat in isolation.
    We are looking at this international child support law and 
what it is doing. One of the things we are looking at there is 
tapping into the National Directory of New Hire's.
    We are kind of looking at that as a way to expedite a lot 
of information and hopefully lower the cost of a lot of these 
programs. That information will be right there.
    I think that is ultimately what we want to do, have some 
uniformity and make sure we are delivering those very 
efficiently and cost effectively.
    Maybe it is kind of a bigger question, but the question is 
how would standardization help us when we are reviewing and 
evaluating programs?
    Is it worth the effort to move towards standardization 
because that benefit is going to be there?
    It is kind of a question for each member of the panel.
    Mr. DOAR. It would absolutely help us. One of the theories 
of the post-welfare reform world was that we have a combination 
of programs that can serve as work supports. We want to know if 
people are working and taking advantage of SNAP, public health 
insurance, perhaps other forms of assistance.
    It is good to know how those programs work together for an 
individual client, and whether they work together, for how 
many.
    The analytical opportunities that we can see if we get 
greater standardization across programs so we can know who is a 
multiple program user and who is not and why not.
    I absolutely agree about the National New Hire's database. 
I come from the child support program. It is a tremendous 
resource and has greater potential than it is currently being 
used for.
    There is no question that standardization will allow us to 
see not just how these programs work by themselves, but how 
they work in concert with other programs and with employment, 
which is I think what we are all trying to do.
    Ms. ZIELINSKIE. Thank you for the question. The primary 
focus of our work has been on older Americans. There has been 
great work done with the Elder Index, which does exactly what 
you are talking about.
    I think absolutely standardization around what an 
individual needs to reach and maintain economic security is 
critical, as we explore how to support our older Americans.
    That being said, we also need to take into consideration 
that the cost of living in New York City, for example, is 
probably different than in North Dakota.
    Mr. BERG. Some parts of North Dakota get pretty expensive.
    Mr. ZIELINSKIE. The Elder Index does that. Wider 
Opportunities for Women and the National Council on Aging are 
also engaged in a lot of work around economic security for 
older Americans.
    I guess a caution as we look at standardization is that it 
is critical to also need to look at the environment in which 
those individuals are trying to thrive.
    Mr. MCDONALD. I would just add that I think the 
standardization has to be the starting point for trying to take 
this complexity out of the programs and agencies and the 
investment in that will reduce the amount of future investment 
that you have to deploy on programs for them to be able to 
share information and get value out of that information, both 
from a cost savings standpoint, but more importantly, how to 
reallocate it to the right programs and the right missions.
    I think it is just fundamentally the right place to start.
    Mr. PRYDE. I think one of the advantages is you do not get 
the data stuck in separate systems. If everyone is using a 
different system, there is no way these systems can talk to 
each other. If we have standards across an agency or among 
agencies, one system can talk to another seamlessly.
    I can request some information, that request can go down to 
all those systems and pull it on the fly, which is not the case 
where you have different computer screens to log into each 
different system.
    Mr. BERG. Thank you. I will yield back, Mr. Chairman.
    Chairman DAVIS. I thank the gentleman. The Chair now 
recognizes Dr. Boustany from Louisiana for five minutes.
    Mr. BOUSTANY. Thank you, Mr. Chairman. Under our 
Subcommittee's jurisdiction, we have two programs, SSI and 
Unemployment Insurance, that both have been deemed high-error 
programs by the Office of Management and Budget.
    In fact, in fiscal year 2011 alone, they combined to 
account for $18.3 billion in improper payments.
    Mr. McDonald, I read through your testimony and you had a 
lot of detail in there referencing the work that you all have 
done in Michigan with regard to fraudulent child support.
    I would like you to elaborate for the Committee a little 
more about that work and what steps could we take at the 
Federal level to implement some of your best practices?
    Mr. MCDONALD. Sure. I think what the State of Michigan 
decided to do was build a platform that integrated its 
information across all their different programs.
    They knew by doing so they would not only provide better 
customer satisfaction to those people that are using the 
programs, but they would link that information to find fraud 
and abuse, and then take that extra money and apply it back to 
those programs that were under funded.
    Think about the simplicity if I come and get a new driver's 
license but I have not been paying my child support, instantly, 
you are able to connect those two, and start trying to recoup 
those benefits, right?
    Just the simplicity of connecting different programs and 
agencies' information gives you that instant insight of first, 
being a better provider to those taxpayers, but secondarily, 
catching fraud at the moment it happens instead of having to 
wait a year later to determine if we have been over paying or 
under paying in certain areas.
    I think it is very common practice on the business side and 
I think it is now becoming an opportunity in the Government to 
start looking at that same benefit they can reap by 
consolidating the data, standardizing the data, and giving 
access and interoperability to the different agencies in a 
quick fashion, so they can catch things both proactively and 
defensively.
    Mr. BOUSTANY. Thank you. At a time when we know we have a 
number of duplicative programs with a lot of overlap and we are 
dealing with budgetary problems, looking at the effectiveness 
of these programs is critically important.
    It seems to me what you just described would also help us 
in our oversight role, sort of paring down, figuring out how to 
most efficiently use those resources.
    Mr. MCDONALD. I would agree. I think too often people ask 
about how much money do you need, and I think not enough is put 
into what will be the impact or return of that investment.
    In most cases, what we are seeing, especially like the 
State of Michigan, they spent a few million dollars, but they 
got $15 for every dollar they invested.
    Who would not like that formula for investing, to try to 
take costs out and return that money back, right?
    As you can see, understanding the impact, but also everyone 
now operates under a similar fashion. Whether you are Bank of 
America or CMS, in reality, projects are 12 month based, they 
are program based, you have to spend money and see that return 
in a quick fashion, but you have to have a view as to where am 
I going to be in three years, am I incrementally improving the 
overall process versus this program approach and a 12 month 
approach.
    Mr. BOUSTANY. Thank you. From the time the first set of 
data standards were included in the child welfare programs to 
the next iteration of TANF and Unemployment programs, the 
language went from suggesting a standard like XBRL to 
suggesting XML.
    Some of the concerns that were expressed was that XBRL was 
too expensive or too complicated to implement, and the feedback 
we received was that we should only recommend that the agencies 
implement XML.
    Mr. Pryde, could you respond to those criticisms for us? Is 
it too complicated or too expensive?
    Mr. PRYDE. It depends on what you are trying to do. XBRL is 
specifically designed for reporting financial and performance 
data. It is not designed for reporting information like 
biometric information or information on human resources cases. 
It is specifically done for financial reporting.
    To use XBRL for sharing information about a child's 
condition or operational issues, XBRL would not be appropriate 
in that case. It would be silly to do that.
    There are other standards that would be more appropriate in 
those cases.
    However, if you are going to report financial reporting 
information like how much is this agency spending, how much are 
we spending on this program, what period are we spending it, 
how much is wasted and what is the cost, et cetera, then XBRL 
is an appropriate standard to use.
    If you ask that question, let's use XBRL to standardize 
every single piece of data, yes, that would be correct, it 
would not be appropriate to do that.
    Mr. BOUSTANY. I thank you. Mr. Chairman, I yield back.
    Chairman DAVIS. I thank the gentleman. The Chair now 
recognizes Mr. Reed from New York for five minutes.
    Mr. REED. Thank you, Mr. Chairman. Thank you again to the 
witnesses on the second panel.
    Being from New York, I want to spend a little time with my 
fellow New Yorker here.
    If we could, I am very interested. I read your testimony, 
in particular, pages six and seven, talking about the lessons 
you learned as you implemented the programs in your agency in 
New York City.
    I want to kind of delve into a little bit more detail as to 
what you could offer us from your experience in implementing 
that, in particular, and also the interaction you referenced, 
the problem with Social Security numbers, the Social Security 
Administration.
    Obviously, they are such a large agency with tons of data 
that needs to be part of this conversation, in my opinion.
    I am very interested in your point of view on what lessons 
you learned that we can learn here in Washington, D.C.
    Mr. DOAR. Well, one of the lessons we learned is that the 
direction from the top had to be emphatic, that the lawyers had 
to do everything they possibly could and be as imaginative and 
as persistent in trying to make legal and appropriate, not 
inappropriate, arguments for allowing the sharing of data.
    Bureaucracies, as I think the previous panel mentioned, are 
inherently narrow and afraid, and afraid of doing something 
that someone may say in rare circumstances it was wrong or not 
consistent with policy.
    That was a very important lesson. We really pushed our 
lawyers to really think creatively and set up the process where 
those agencies that received data had to sign a form with the 
commissioners committed to enforcing confidentiality and 
security rules on employees that violated them, and to report 
back to the giving agency so that we were consistent.
    We had an advantage in New York State, social services is 
governed by sort of an umbrella agency, and that is mine, so I 
could delegate to sister agencies the role of being social 
services and in a social services' purpose.
    One lesson is to get the lawyers and the mayors, chief 
executives' position be very strongly felt that this was 
something we were going to try hard to do.
    Social Security Administration data is data we use now in 
certain programs. We use it based on established agreements 
with SSA that have taken a long time to be established, that 
have allowed us to get data.
    Their prohibitions against sharing of that data are very 
firm. One of the things our lawyers had to do was not allow 
that data from that source to be used in the way that we wanted 
to, and that is a problem that we think we would like to work 
on nationally.
    Also, there are HIPAA requirements involving the sharing of 
Medicaid or health data, which we basically agree with. This is 
private data. This is something that should not be shared 
inappropriately.
    Claims data as opposed to just being on Medicaid, but 
actually just how much is being expended on the client in 
Medicaid and where is strictly prohibited, so we do not share 
that, and that is a problem, which we think we could make 
greater work with this if we had that available to our sister 
agencies and to ourselves in a way that it could be used.
    Finally, we would constantly come up to situations--I am on 
a taskforce that looks at the gap between African American 
children and white children in schools.
    We know that exists. Education wants us to work with them 
on that, and we want to work with them on that, but we do not 
share any data.
    We do not know about the use of public assistance within 
schools by children and they do not know it either. In both 
cases, I think it would be useful.
    Those are the frustrations that have occurred. It required 
real work. It required somebody holding the bureaucratic narrow 
individual agencies accountable, and it ran into some barriers 
we just could not get through with regard to sharing data.
    Mr. REED. I appreciate that. Mr. McDonald, from your 
experience in the private sector, if we leave SSA out of this 
conversation and do not really focus on that, do you see a 
problem, how that could impact the development of 
standardization across the agencies?
    It is such a large agency and such a large amount of data. 
I just want to know from your perspective, would that work in 
the private sector?
    Mr. MCDONALD. I think in the private sector, they have come 
to realize the importance of standardization across 
corporations. I think through the evolution of how they have 
gone through mergers, acquisitions and growth, they have all 
had to realize that unless we standardize on whether it is 
financial data, product data, or customer data, how will they 
be able to roll these companies and report on that.
    I think no matter the size, there are enterprises bigger 
than many of the agencies that have done that.
    Is it doable? Yes. Is it required? Yes. I think it is a 
matter of putting the energy and the standards behind it that 
says let's adopt this.
    I think what you will see is once you start, five years 
from now you will say why did we not do that ten years ago.
    It is just a matter of making that first step and getting 
everyone committed to this is what we have to do to get to 
where we want to be, so let's stop talking about it.
    Mr. REED. I appreciate that. With that, my time is expired. 
I yield back.
    Chairman DAVIS. I thank the gentleman from New York. I just 
have to tell you the little huddle that was going on over here 
in the early part of Mr. Reed's question, your testimony has 
inspired two of our subcommittee members to come up with 
another piece of legislation to compliment what we are doing 
for data sharing on the health care side, our two doctors on 
the Subcommittee.
    As we wrap up, I would like to ask one final question. It 
is open to all to comment. I would like to start first with Mr. 
Pryde, then with Mr. McDonald, on this issue of analytics and 
standards.
    I am going to preface this by saying coming into Government 
from a world dealing with implementations, focusing on internal 
rate of return, and the idea that I can make an investment and 
know, particularly for those of you who have all dealt with 
what you might call a return on information, a dollar spent on 
information improvement can usually return itself 15, 20 or 50 
times what was spent in improvements of efficiency, throughput, 
the agility to respond to unique customer needs because of that 
access to information.
    Unfortunately, the Congressional Budget Office is trapped 
in another era and focuses on static rather than dynamic 
scoring, which is our issue to address in looking at the value 
of this.
    Speaking of value, I would appreciate it if Mr. Pryde could 
talk a little bit about the importance of standards. I am very 
familiar with XBRL, not from a programming standpoint, but one 
of the very first pieces of legislation that I introduced, the 
Transparency and Financial Reporting Act back in 2005, was 
directly built around the idea of using things like XBRL and 
XML to harmonize processes, bring best practices to the SEC and 
other related organizations, with financial services 
accountability.
    Also, frankly, to offset some of the huge compliance costs 
imposed with Legacy systems and Sarbanes-Oxley.
    I was wondering if you could comment on the value that 
comes in terms of pay back by the implementation of these kinds 
of common standards, and then the analytics that would come 
from some real world examples.
    I am quite open to the private sector since the Government 
is generally a lagging indicator of what is happening out in 
the country.
    Mr. PRYDE. Sure. We recently issued a white paper covering 
how much Government reporting that is required by companies. We 
can make that available to the Committee.
    It kind of backs up what Ms. Roy was saying, where 80 
percent of the information was repeated information that they 
were reporting to different agencies, so you get a massive 
amount of duplication in data because no one is sharing the 
data, there is no way of sharing it. You get significant 
efficiencies through that.
    In addition, there was an implementation that was carried 
out by the FDIC five years ago to collect call report data. 
This information was called call report data, because they had 
to go around and call everyone when they submitted the data 
incorrectly.
    With XBRL, they could check the data on submission, that 
reduced all the manual costs that were involved in checking on 
the data and getting it correct.
    A lot of this stuff, once you standardize it, you have 
created a platform for automation. Everything can be automated.
    For example, every SEC filing that is filed with the SEC we 
analyze. We run 12,000 checks on it. We find out so much 
information about these companies which was impossible to do 
before in an automated way.
    We have this information go back to companies, go back to 
the auditors. You end up in an era where you create layers of 
things that you could never dream of doing before, which can 
save massive amounts of costs and can completely make redundant 
very time-consuming and manual processes that you had in the 
past.
    Mr. MCDONALD. I would just add that if you think about it, 
without the standards, even if you got everyone to agree that 
they wanted to track return on investment or the IRR for 
programs or whatever the right metrics are, without the 
standardization, it is still going to be tough to measure the 
effectiveness and how they are calculating it. They are all 
using different methods.
    We have a couple of customers that have gone on record, the 
State of Michigan, and they have advertised that they save over 
$1 million a day. That does not mean they are not spending the 
money back on the programs, but think about the effectiveness 
of a state saving $1 million a day and reinvesting that back 
into their programs.
    It is through this investment and the technology to put it 
all together, set standards, and be able to share this 
information.
    If I save $1 million in one department, I give it to 
another department, and they are effectively better utilizing 
that cash and that investment.
    They in effect are making, like you said, 15/25 percent 
back on that investment.
    We have had other customers like AT&T who say with our 
analytic platform, we saved $1 billion over a ten year period. 
You ask them, were these big things. They said no, it is little 
things.
    It was hundreds of thousands of little things that the 
front line workers were able to see and solve or fix in a quick 
manner that allowed AT&T to use those advance analytics, which 
get deployed across the way, it is operationalized in all of 
their operations, to save them $1 billion.
    Again, that possibility is capable here for the Federal 
Government as well.
    Ms. ZIELINSKIE. Using standardized data can have many 
positive impacts. It can help people who need services in a 
most comprehensive fashion; it can help reduce costs by being 
able to determine eligibility cost-effectively; and it can help 
in administering services as efficiently as possible, and 
evaluating programs in terms of true value.
    I look forward to working with all of you to figure out how 
we can prove this and really have a paradigm shift, so talking 
about data and how we deliver services and embracing the power 
of the data that the Government has is not innovation but 
rather the norm in terms of how we do business.
    Chairman DAVIS. Thank you. Just as a case in point, since I 
am married to a Bronx girl, Mr. Doar will get to have the last 
word.
    Mr. DOAR. Thank you very much. I am from Brooklyn but we 
love the Bronx.
    When the Deputy Mayor started the project with the Mayor's 
endorsement, we had an ROI all the way through it. When we were 
talking to our partners in the technology industries, we were 
very clear that we are going to make an investment here with 
your firm or this operation, but we want to see it returned 
more so to the taxpayers and to our outcomes.
    The key benefit was time and energy. We are reducing costs 
of staff by sharing information. We believe that is happening.
    You should also know that part of the return on investment 
that the City sees is the extent to which Federal claiming 
sources are maximized.
    There is a part of this that involves making sure that 
everybody who should be getting Medicaid or should be getting 
food stamps does, and that will lead to greater cost across the 
Federal Government.
    Chairman DAVIS. Thank you very much. I appreciate all of 
you taking the time to come in and share from various parts of 
the country.
    It has been very helpful. I believe this may not be an 
issue that brings in crowds of people and emotional activists 
on either end of the spectrum, but I am admonished to the old 
baseball rule that baseball is a pretty easy game, it is just 
throwing and catching and hitting, and in business, it is these 
basic building blocks that will make the difference in the long 
run.
    I believe that what we are all discussing here today is at 
the foundation of transforming our Government in the 21st 
Century to be something that all Americans can be proud of.
    If members have additional questions, they are going to 
submit them to you directly. What I would request is that you 
submit your answers back to the Committee as well so we can get 
them into the record so all have access to that.
    With that, thank you again. Thank you to our guests and 
Committee members, and with that, we stand adjourned.
    [Whereupon, at 12:26 p.m., the Subcommittee was adjourned.]
                   Member Submissions For The Record
                       The Honorable Geoff Davis


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                      Questions For The Record

                 The Honorable Geoff Davis to Mr. Pryde



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


             The Honorable Geoff Davis to Mr. Sheldon



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                     Submissions for the Record

                            Steven D. Harris


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               <all>

</pre></body></html>
